                                      December 22, 1999

                                      M. RICHARD PORRAS
                                      CHIEF FINANCIAL OFFICER AND
                                       SENIOR VICE PRESIDENT

                                      SUBJECT:	 Review of Budget Cost Containment Measures
                                                (Report Number FR-MA-00-001)

                                      This management advisory report presents the results of our
                                      review of budget cost containment measures (Project
                                      Number 99PA027FR000). In September 1998, the
                                      postmaster general asked his officers to reduce
                                      headquarters expenses to preserve fiscal year (FY) 1999
                                      financial goals. To meet this financial challenge,
                                      headquarters management assessed their budgets for
                                      potential reductions for FY 1999 and FY 2000. We
                                      conducted the review to identify: (1) key factors responsible
                                      for successfully implementing the FY 1999 "Management
                                      Challenge" and (2) opportunities to improve future budget
                                      reductions.

Results in Brief	                     The Postal Service surpassed its "Management Challenge”
                                      through reductions in headquarters programs to preserve
                                      financial goals for FY 1999. The “Management Challenge”
                                      process was accomplished through functional coordination
                                      that yielded reductions in budgeted expenses and more
                                      efficient operations. As a result, the Postal Service reduced
                                      its expenses for FY 1999 by about $675 million with little
                                      impact on customer service.1

                                      In addition, opportunities exist to improve the process in the
                                      event future budget reductions are required. Specifically, 32
                                      of the 50 personnel we interviewed stated that guidelines
                                      and criteria were not disseminated to all levels of the
                                      organization and 20 personnel stated they should have
                                      focused more on strategic goals to fully optimize the

1
    According to senior postal officials.
Review of Budget Cost Containment Measures                                      FR-MA-00-001



                            outcome of the “Management Challenge.” Further, 48 of the
                            50 personnel we interviewed expressed concerns regarding
                            not having a method for evaluating the impact on programs
                            after budget reductions.

                            We suggested that in the event of future initiatives for
                            budget reductions, the Postal Service should: (1) issue
                            written guidelines and criteria, (2) communicate the strategic
                            approach to all levels of the organization, and (3) require
                            program managers to maintain documentation to reflect the
                            impact of budget reductions. Management agreed with and
                            has planned actions that are responsive to our suggestions.
                            Management’s comments are included, in their entirety, in
                            Appendix B.

Other Pertinent             Of the 16 vice presidents we interviewed, 13 stated they
Matters                     should have focused more on strategic instead of tactical
                            goals. We agree with their assessment and are concerned
                            that the program plans may not appropriately document
                            expected outcomes and their impact on generating revenue.
                            In addition, as previously stated in the report, headquarters
                            reduced expenses by about $675 million with little impact on
                            customer service. The lack of measurable impact may have
                            resulted from not having data and documentation to
                            evaluate the immediate and long-term impact of budget
                            reductions, or not linking budgeted amounts to anticipated
                            levels of performance during program planning. For these
                            reasons, we are initiating an audit to assess the Postal
                            Service’s budget formulation process.

Background                  Due to delays in the rate increase and a decrease in
                            projected revenues, the postmaster general requested
                            headquarters personnel to reduce their budgeted expenses
                            by $400 million during FY 1999. This request was referred
                            to as the “Management Challenge.” To meet this financial
                            challenge, headquarters personnel focused on cost
                            containment measures and began taking aggressive
                            management actions to meet the challenge and preserve
                            the $200 million net income planned.

                            As of December 4, 1998, revenues were about $176 million
                            below projections. Therefore, to achieve original net income
                            projections, officials reduced headquarters budgeted
                            expenses from $7.8 to $7.4 billion, resulting in reductions to
                                                                      2




                                                  2
                                       Restricted Information
Review of Budget Cost Containment Measures                                                              FR-MA-00-001



                                  budgeted expenses of about $420 million2 (5.4 percent).
                                  The following chart depicts this reduction.

                                                   Postal Service Headquarters FY 1999
                                                           Budget (In Millions)




                                         $7, 355                              $420     5.4%




                                                         Budget     Management Challenge


                                  In addition to reductions taken at headquarters, the Postal
                                  Service was able to significantly reduce its expenses in the
                                  field during FY 1999. These reductions were not achieved
                                  through the formal “Management Challenge” process and
                                  were not specifically addressed during this review. Budget
                                  formulation and execution for field operations will be
                                  addressed in future Office of the Inspector General’s audit
                                  coverage.

Objective, Scope, and             Our objectives were to identify: (1) key factors responsible
Methodology                       for successfully implementing the FY 1999 "Management
                                  Challenge" and (2) opportunities to improve future budget
                                  reductions. To conduct our review, we:

                                       !     Reviewed 5 of the 14 headquarters functional
                                             areas,3 which comprised about 94 percent of the
                                             budget reduction dollars.
                                       !     Interviewed 16 vice presidents, 21 program
                                             managers, and 13 budget coordinators and
                                             consolidated their views to provide lessons learned.
                                       !     Examined processes used to identify budget 

                                             reductions. 



2
  Rounding. The actual number is $416 million. 

3
  Areas evaluated are comprised of deputy postmaster general, chief marketing officer, chief operating officer, chief 

technology officer, and corporate transportation. 




                                                          3
                                               Restricted Information
Review of Budget Cost Containment Measures                                       FR-MA-00-001



                                !    Reviewed applicable documentation regarding the
                                     process.

                            This review was conducted from August through November
                            1999, in accordance with the President’s Council on
                            Integrity and Efficiency, Quality Standards for Inspections.

                            Audit field work was completed, and the draft results of this
                            audit published, prior to approval and publication of the
                            FY 1999 audited financial statements of the Postal Service.
                            In the interest of consistency between the draft and final
                            reports, we did not revise the financial information contained
                            in the report. However, differences were not material and
                            had no overall effect on the results of our review.

                            We discussed our conclusions and observations with
                            appropriate management officials and included their
                            comments, where appropriate.

Management                   The Postal Service surpassed its "Management Challenge"
Challenge                    through reductions in headquarters programs to preserve
                             financial goals for FY 1999. As a result, headquarters
                             reduced its expenses by about $675 million with little
                             impact on customer service.

                             Headquarters revised its original FY 1999 budget from
                             about $7.8 billion to $7.4 billion, resulting in reductions of
                             about $420 million. Further, headquarters made additional
                             reductions of $259 million to realize end of the year actual
                             expenses of $7.1 billion. Therefore, the overall effect of
                             implementing the “Management Challenge” and additional
                             reductions was about $675 million as depicted in the
                             following chart.




                                                  4
                                       Restricted Information
Review of Budget Cost Containment Measures                                                            FR-MA-00-001




                                      FY 1999 Headquarters Budgeted Versus Actual Expenses4
                                                            (In Millions)

                                                               $7,771
                                       7800

                                       7600
                                                                               $7,355
                                       7400
                                                                                             $7,096
                                       7200

                                       7000

                                       6800

                                       6600
                                                 Original         Revised           Actual

                                                                 Expenses


                                    During our audit, we interviewed 50 key headquarters
                                    personnel assigned to various functional areas and levels,
                                    to assist us with assessing the process used to implement
                                    the FY 1999 “Management Challenge.” Appendix A
                                    provides a summary of the overall interview results
                                    regarding the “Management Challenge.”

                                    The “Management Challenge” process was accomplished
                                    through functional coordination that yielded reductions in
                                    budgeted expenses and more efficient operations. The
                                    following graph depicts the number of key personnel we
                                    interviewed that expressed their views on the process
                                    strengths that contributed to accomplishing the
                                    “Management Challenge.”




4
    These expenses are based on preliminary (unaudited) accounting period 13 financial results.



                                                           5
                                                Restricted Information
Review of Budget Cost Containment Measures                                                               FR-MA-00-001




                                                               Process Strengths
                                                                50
                                        50

                                                                                              Functional
                                        40
           31
                                                                                              Coordination
                                        30
                                                   Budget
                                                                                              Reductions
                                        20
                               9                   Operating More
                                        10
                                                   Efficiently

                                         0



                                     In addition, opportunities exist to improve the future budget
                                     reduction process.

Functional Coordination              The “Management Challenge” was a coordinated effort and
                                     not just the responsibility of the controller or chief financial
                                     officer. Of the 50 personnel we interviewed, 31 stated that
                                     functional coordination was a key factor in accomplishing
                                     the “Management Challenge.” The following table depicts
                                     the number of key personnel sharing that view by functional
                                     level.

                                                            Functional Coordination

                                                                                   Interviewed          Confirmed

                                     Management Committee Members                         5                 5
                                     Vice Presidents                                     11                 3
                                     Program Managers                                    21                14
                                     Budget Coordinators                                 13                 9
                                           Total:                                        50                31

                                     To illustrate, headquarters management committee, in
                                     coordination with the Establish Team,5 held discussions to
                                     effectively respond to the “Management Challenge.” Our
                                     interviews with committee members disclosed that the team
                                     used an iterative process to coordinate among functional
                                     areas, at the headquarters level. This process was also



5
    The Establish Team was the team responsible for the initial phase of the budget planning process.



                                                           6
                                                Restricted Information
Review of Budget Cost Containment Measures	                                                           FR-MA-00-001



                                   used to determine interdependencies among programs and
                                   potential impacts for programs if they were reduced,
                                   deferred, or eliminated.

                                   Committee members then met with responsible personnel6
                                   within their functional areas and collectively made decisions
                                   on how to achieve the “Management Challenge.”
                                   Specifically, management evaluated the consistency
                                   between fixed (mandatory) and variable (discretionary)
                                   costs for selected programs. Management also prioritized
                                   programs and computed return on investment to determine
                                   potential cost savings, and then reduced, deferred, or
                                   eliminated the programs accordingly. As a result,
                                   headquarters personnel reduced their budgeted expenses.

Budget Reductions 	               Key headquarters personnel reduced budgeted expenses
                                  within their functional areas to achieve the “Management
                                  Challenge.” Based on our interviews with key personnel, all
                                  50 stated they took budget reductions to achieve the
                                  “Management Challenge.” Examples of some of the
                                  significant reductions taken by the personnel included:

                                  ! Selected advertising at the headquarters level was
                                    reduced by about $58 million. Reductions were taken in
                                    Field Sponsorship, Research and Development, and
                                    Special Service Advertising.

                                  ! Budgeted expenses for the Corporate Call Management
                                    program were reduced by $53 million. The reductions
                                    were achieved by pursuing a slower implementation
                                    schedule.7

                                  ! Transportation costs were reduced by $50 million by
                                    using space more efficiently on dedicated aircraft.

                                  ! The Point of Service program was reduced by
                                    $15 million. The reductions were accomplished by
                                    delaying program implementation.

                                  These reductions comprised about $176 million (40 percent)
                                  of the $420 million in the reductions headquarters initially
                                  took with regard to the “Management Challenge.”

6
 Management, program managers, and budget coordinators
7
 According to postal officials, the full board was notified of the decisions regarding the Corporate Call Management
and Point of Service programs.



                                                         7
                                              Restricted Information
Review of Budget Cost Containment Measures	                                                       FR-MA-00-001



Operating More                  Senior management in coordination with key personnel
Efficiently                     reassessed many business processes to identify
                                opportunities for increased efficiency. The following table
                                depicts the number of personnel we interviewed by
                                functional level that stated operating more efficiently was
                                key in implementing the “Management Challenge.”

                                                       Operating More Efficiently

                                                                               Interviewed       Confirmed

                                 Management Committee Members                       5               2
                                 Vice Presidents                                   11               5
                                       Total:                                      16               78

                                Specifically, officials stated they:

                                ! Questioned the validity and accuracy of support service
                                  costs provided by other headquarters functional areas.

                                ! Reduced the timeframes and costs for training,
                                  conferences, and seminars by having teleconferences
                                  and changing locations for training to be near an airport.


                                ! Developed intranet training systems and thus, reduced
                                  printing and mailing costs.

                                ! Discontinued payment for research and development of
                                  selected logistics systems and opted to use technology
                                  that was available commercially (off-the-shelf).

                                Thus, according to postal officials, their decisions resulted in
                                business efficiencies that contributed to the successful
                                execution of the “Management Challenge.”

Process 	                       Based on our review, opportunities exist to improve the
Improvements 	                  process if future budget reductions are necessary. To
                                improve the process management should: (1) issue written
                                guidelines and criteria, (2) communicate the strategic
                                approach to all levels of the organization, and (3) require
                                program managers to maintain documentation to reflect the

8
  We did not include the program managers and budget coordinators because vice presidents are ultimately
responsible for making decisions regarding programs.



                                                       8
                                            Restricted Information
Review of Budget Cost Containment Measures	                                                 FR-MA-00-001



                               impact of budget reductions. The number of key personnel
                               sharing those views is depicted in the following chart.

                                                     Process Improvements

                                  40
                                                32                 28
                                  30                                                    Guidelines
                                                        20
                                  20                                                    Strategic

                                  10                                                    Impact

                                   0



Guidelines and Criteria	 Specific guidelines and criteria could have assisted
                         headquarters personnel with optimizing the outcome of the
                         “Management Challenge.” The following table depicts the
                         number of key personnel we interviewed, by functional level,
                         who viewed guidelines and criteria as an area warranting
                         improvement.

                                                      Guidelines and Criteria

                                                                   Interviewed          Confirmed

                               Vice Presidents                          11                   7
                               Program Managers                         21                  15
                               Budget Coordinators                      13                   8
                                     Total:                             45                  309

                               Key personnel stated they were told to make reductions, but
                               were not given specific guidance on how to preserve the
                               FY 1999 financial goals of the Postal Service. For instance,
                               the committee members had discussions and provided
                               instructions among committee members to execute the
                               “Management Challenge.” However, the results of the
                               discussions, including guidelines and criteria, often were not
                               communicated to functional area personnel.

                               Overall, there were three phases for requesting budget
                               reductions. During each phase, management was tasked

9
 This number does not include the management committee, shown in the bar graph, because committee members
were responsible for establishing and disseminating guidelines and criteria.



                                                     9
                                          Restricted Information
Review of Budget Cost Containment Measures                                       FR-MA-00-001



                            with making budget reductions in a short timeframe.
                            Personnel considered the task to be complicated because
                            the targeted amount for reducing expenses changed as the
                            overall expense information changed. In addition,
                            management stated they made reductions but were often
                            concerned about the strategic (long-term) implications.

Strategic Versus            Key personnel often did not focus on strategic goals when
Tactical                    making budget reductions. Overall, 20 personnel we
                            interviewed stated they took a tactical approach to
                            implement the “Management Challenge.” The following
                            table depicts the number of key personnel, by functional
                            level, who shared this view.

                                                 Strategic Versus Tactical

                                                                Interviewed   Confirmed

                             Committee Members                       5            4
                             Vice Presidents                        11            9
                             Program Managers                       21            3
                             Budget Coordinators                    13            4
                                   Total:                           50           20

                            Because the focus was on tactical goals, value-added
                            programs were eliminated or deferred. For example:

                            ! One program implemented to prevent fraudulent
                              submissions of change-of-address orders by sending a
                              move validation letter to customers who are moving was
                              eliminated based on recommendations by the area vice
                              presidents to save $10.6 million. Committee members
                              reestablished this program because of the increased risk
                              for fraud. After the budget was restored, post offices
                              attempted to resend the validation letters, but were
                              unable to recover and process all of the letters. Thus,
                              we believe taking a more strategic approach could have
                              resulted in a decision not to eliminate the program and
                              ensure validation letters were processed and received.

                            ! Alternative Dispute Resolution program, established to
                              assist headquarters with informal, timely resolutions of
                              Equal Employment Opportunity conflicts, was initially
                              reduced by $3.3 million for training, travel, and
                              promotional items. However, officials later



                                                 10
                                       Restricted Information
Review of Budget Cost Containment Measures	                                     FR-MA-00-001



                                reprogrammed $2 million to fund the program because
                                they were concerned that the reduction in expenses
                                would adversely impact this value-added program.

Impact on Programs 	         Key personnel did not have a method for evaluating the
                             impact on programs after budget reductions and
                             determining the overall impact of deferring, reducing, or
                             eliminating selected programs. As depicted in the following
                             table, 28 key personnel we interviewed, by functional level,
                             shared this view.

                                                       Program Impact

                                                                Interviewed   Confirmed

                             Committee Members                       5             4
                             Vice Presidents                        11            10
                             Program Managers                       21            10
                             Budget Coordinators                    13             4
                                   Total:                           50            28

                             Management stated there was no method to determine the
                             impact because personnel did not maintain documentation
                             to reflect the impact after making budget reductions and
                             most of the reductions were taken from long-term programs
                             with future year benefits. For example, management:

                             ! Reduced advertising for products or campaigns, such as
                               Priority Mail, international mail, and new business
                               initiatives. Thus, the reductions could have an adverse
                               effect on current and future revenues.

                             ! Delayed implementation for capital programs. However,
                               they could not fully assess the long-term impact of the
                               reductions because the full benefit of the program would
                               not be realized until future years.

                             ! Did not renew contracts for hardware upgrades and
                               corporate software licenses agreements. Consequently,
                               headquarters could be operating with outdated and
                               obsolete hardware and software in the future.

                             Establishing written guidelines and criteria, ensuring
                             strategic as well as tactical goals are appropriately
                             communicated and requiring program managers to maintain



                                                 11
                                       Restricted Information
Review of Budget Cost Containment Measures                                      FR-MA-00-001



                            documentation after budget reductions will assist
                            headquarters in optimizing benefits derived from budget
                            reductions in future years.

Suggestions                 We offer the following suggestions.

                            The chief financial officer and senior vice president should
                            coordinate with the Management Committee to:

                            1. Provide written guidelines and criteria to ensure strategic
                               and tactical goals are communicated to optimize benefits
                               derived from future budget reductions.

                            2. Require responsible personnel to document programs,
                               including detailed project plans, to evaluate the impact of
                               budget reductions at both headquarters and functional
                               levels to ensure reductions are in agreement with
                               headquarters goals and strategies.

Management’s                The chief financial officer and senior vice president
Comments                    concurred with our suggestions and advised that officials
                            would incorporate written guidelines and criteria in
                            subsequent budget activities. Officials will also continue to
                            inform program managers of their responsibility to document
                            programs in the budget development process.

                            In addition, the chief financial officer and senior vice
                            president requested clarification on the statement in our
                            report, “management did not renew contracts for hardware
                            upgrades and corporate software licenses agreements.
                            Consequently, headquarters could be operating with
                            outdated and obsolete hardware and software in the future."

Evaluation of               Management’s comments were responsive to our
Management’s                suggestions. In reference to management’s request to
Comments                    clarify the statement regarding hardware upgrades and
                            software licenses agreements, we offer the following
                            response. Based on our discussions with management
                            personnel, we reported this issue because, although there
                            was no immediate impact, we had concerns about future
                            impacts on postal operations.




                                                 12
                                       Restricted Information
Review of Budget Cost Containment Measures                                  FR-MA-00-001




                            We appreciated the cooperation and courtesies provided by
                            your staff during the review. If you have any questions,
                            please contact me at (703) 248-2300.



                            Richard F. Chambers
                            Assistant Inspector General
                              for Performance

                            Attachment

                            cc: Clarence E. Lewis, Jr.
                                Allen R. Kane
                                Norman E. Lorentz
                                John E. Potter
                                Gail G. Sonneberg
                                John H. Ward
                                John R. Gunnels




                                                 13
                                       Restricted Information
Review of Budget Cost Containment Measures                                                                                                        FR-MA-00-001



                                                                        Appendix A

                                                          SUMMARY OF
                                                INTERVIEW RESULTS REGARDING THE
                                            PROCESS FOR THE “MANAGEMENT CHALLENGE”


                                                                                  Process Strengths                    Process Improvements




                                                                        Coordination




                                                                                                                                  Strategic vs.
                                                                                                                   and Criteria
                                                                                        Reductions
                                                                         Functional




                                                                                                     Efficiently
                                                                                                     Operating




                                                                                                                    Guidance




                                                                                                                                                     Program
                                                                                                                                                     Impacts
                                                                                                                                    Tactical
                                                                                         Budget




                                                                                                        More
                           POSITION




MANAGEMENT COMMITTEE10 (5)                                                 5               5             2            2               4                4


VICE PRESIDENTS (11)                                                       3             11              5            7               9               10


PROGRAM MANAGERS / MANAGERS (21)                                          14             21              1           15               3               10


BUDGET COORDINATORS (13)                                                   9             13              1            8               4                4


                          TOTAL (50):                                     31             50              9           32             20                28



10
     Management Committee is comprised of the senior vice presidents.
                                                                              15
                                                                    Restricted Information
Review of Budget Cost Containment Measures                    FR-MA-00-001



                    APPENDIX B. MANAGEMENT’S COMMENTS




                                               16
                                     Restricted Information
Review of Budget Cost Containment Measures                    FR-MA-00-001




 Major Contributors to
 This Report




                                               17
                                     Restricted Information
